June 9, 2010

ANTHONY C. WILLIAMS
DISTRICT MANAGER, NORTHLAND DISTRICT

SUBJECT: Audit Report – Color-Coding of Standard Mail® and Mail Condition
         Reporting in the Northland District (Report Number NO-AR-10-006)

This report presents the results of our audit of color-coding of Standard Mail and mail
condition reporting in the Northland District (Project Number 10XG029NO000). The
objectives were to determine whether employees properly color-coded the mail as well
as accurately counted and reported delayed mail volumes. This is the fourth in a series
of self-initiated reviews addressing the color-code policy for Standard Mail. This audit
addresses operational risk. See Appendix A for additional information about this audit.




For Standard Mail, the color-coding process involves using a series of color tags to
ensure efficient processing in a first-in first-out (FIFO) sequence to meet processing,
dispatch, and delivery targets. A color-coded tag represents the day of the week the
mail arrives on Postal Service premises and denotes the target clearance date from the
facility. Mail condition reports summarize the on-hand and delayed mail volumes of all
classes of mail at each mail processing facility.
Color-Coding of Standard Mail and Mail Condition                                                       NO-AR-10-006
 Reporting in the Northland District


Conclusion

The Northland District1 was not properly color-coding or reporting delayed mail. We
found that:

          Eighty-three percent of the containers were not properly color-coded.

          The correct color was not always maintained throughout processing.

          Delayed mail was not always properly reported. For example, during our first 2
           days of observation, employees counted approximately 264,000 mailpieces but
           did not report it as delayed.

          The date of the oldest mail on-hand was not always accurately reported.

Once we brought proper color-coding and mail condition reporting procedures to
management’s attention, they took immediate corrective action to have employees
properly tag the mail and accurately report mail conditions.

Color Coding of Standard Mail

Of the 354 staged Standard Mail containers reviewed at both the
            only 61 (about 17 percent) were properly color-coded and the remaining
293 were not color-coded in accordance with policy. Specifically:

          Tags on 245 containers (69 percent) were missing the time and/or date.

          Color-code tags were missing from 42 containers (12 percent).

          Six containers had the wrong color tags based on the date the mail entered the
           mail stream.

We also found that when employees processed mail bearing different color-codes
together; they did not properly re-color-code some of it. Additionally,        P&DC
employees did not always use the national standardized tag.

These conditions occurred due to:

        Limited color-code training and awareness of the policy.

        Limited oversight by the color-code coordinator.

        Plant personnel failed to tag some containers received at the dock that needed
         them.
1
    We performed reviews at the Minneapolis and St. Paul Processing and Distribution Centers (P&DC).




                                                          2
Color-Coding of Standard Mail and Mail Condition                                  NO-AR-10-006
 Reporting in the Northland District



Without accurate color-coding, the Postal Service cannot ensure timely processing,
dispatch, and delivery of Standard Mail. Without a date and time on the tag, the Postal
Service cannot determine whether employees processed Standard Mail using the FIFO
method.2 Additionally, the Postal Service cannot readily track service standards and
accurately report mail conditions in the web-based Mail Condition Reporting System
(MCRS). Failure to accurately color-code and date the mail could also confuse delivery
units about when the mail needs to be delivered. See Appendix B for our detailed
analysis of this topic.

We recommend the Northland district manager:

1. Train employees to ensure proper color-coding of Standard Mail according to Postal
   Service policy.

2. Direct the district color-code coordinator to conduct periodic color-code reviews and
   provide program oversight.

Mail Condition Reporting

                                  underreported delayed mail and did not accurately
report the date of the oldest mailpiece in some cases. Bringing these matters to the
attention of plant management resulted in proper reporting, effective February 25, 2010.

These conditions occurred because:

                                         misinterpreted the policy believing they had until
           the delivery day to process the mail before reporting it as delayed.

                           employees did not adequately oversee the employees
           performing the mail count.

Not properly reporting delayed volumes may prevent management from making
effective operational decisions. This could also impact customer service without
management’s knowledge. See Appendix B for our detailed analysis of this topic.

We recommend the Northland district manager:

3. Provide mail condition reporting training and oversight to employees.




Management’s Comments

2
    Mail is staged and processed based on order of receipt.




                                                              3
Color-Coding of Standard Mail and Mail Condition                           NO-AR-10-006
 Reporting in the Northland District



Management agreed with the findings and recommendations. During the audit,
management corrected the deficiencies in the processes. In addition, applicable
employees received color-code and mail condition reporting training, and management
is conducting periodic reviews of the color-coding process. See Appendix D for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
 Jordan     M. Small
    Sylvester Black
    Susan M. LaChance
    Erica A Brix
    Sally K. Haring




                                                   4
Color-Coding of Standard Mail and Mail Condition                                                      NO-AR-10-006
 Reporting in the Northland District


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Standard Mail is essential to the growth of the Postal Service and is a major factor in its
economic health.3 Standard Mail accounts for approximately 47 percent of all mail
volume and 26 percent of the revenue of the U.S. Postal Service per year.4 Delivering
Standard Mail timely is important for operational efficiency and customer satisfaction.

The Postal Service uses a system of color-coding to facilitate timely movement of
Standard Mail. The color-coding process requires employees to assign a color to
mailpieces based on the day of the week. This enables easy processing of mail using
the FIFO method. Management updated the color-coding policy on June 17, 2008, with
an effective date of August 29, 2008. In December 2008, management made an
additional update to the policy clarifying reporting requirements. The Postal
Accountability and Enhancement Act of 2006 requires delivery standards be established
for all classes of mail. While standards have not changed, the policy maintains the
integrity of the color-code from processing to delivery. The service standard for
Standard Mail is 3-10 calendar days.




              Illustration 1:
    A color-code chart at the xxxxxx
      P&DC provides guidance for
       placing the correct tag on
             incoming mail.




Policies and procedures for the color-coding system are set forth in Section 458 of the
Postal Operations Manual (POM). The Postal Service is revising the POM to reflect
changes in the new color-coding policy.

In support of the updated policy, management also made changes to the MCRS
categories. Categories such as Plan Failure, Delayed Processing, and Delayed

3
  Standard Mail weighs less than 16 ounces and includes circulars, pamphlets, catalogs, newsletters, direct mail, and
merchandise.
4
  U.S. Postal Service Annual Report, 2009.




                                                          5
Color-Coding of Standard Mail and Mail Condition                                 NO-AR-10-006
 Reporting in the Northland District


Dispatch are no longer reported for Standard Mail. The term “Delayed Mail Flow for
Standard Mail” is a new MCRS definition and occurs when mail is not processed,
finalized, or dispatched from a specific operation or facility to ensure delivery by the
programmed delivery day.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether the mail was properly color-coded as well as
whether it was accurately counted and reported.

This is the fourth in a series of audits addressing color-coding and mail reporting at
P&DCs nationwide. We selected the Northland District based on historical delayed mail
reporting volumes.

To determine whether color-coding procedures conformed to the national color-coding
policy, we observed color-coding of Standard Mail at both the xxxxxxxxxxxxxxxxxxxx
P&DCs during the week of February 22, 2010. We observed mail color-coded at other
facilities, including the Minneapolis Network Distribution Center (NDC)5 and Minneapolis
Hub. Additionally, we verified mail counts and reviewed count data reported in MCRS.
We interviewed Postal Service officials and employees, photographed operations, and
observed conditions.

We used computer-processed data from the following systems:

          Web Enterprise Information System

          Web Mail Condition Reporting System (webMCRS also referred as simply
           MCRS)

          Enterprise Data Warehouse

We did not test controls over these systems. However, we checked the reasonableness
of results by confirming our analysis and results with Postal Service managers and
multiple data sources. We conducted this performance audit from February through
June 2010 in accordance with generally accepted government auditing standards and
included such tests of internal controls as we considered necessary under the
circumstances. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. We discussed our observations and conclusions with management officials
on February 25, 2010 and included their comments where appropriate.


5
    Formerly the Minneapolis Bulk Mail Center (BMC).




                                                       6
     Color-Coding of Standard Mail and Mail Condition                                        NO-AR-10-006
      Reporting in the Northland District


     PRIOR AUDIT COVERAGE

                              Report            Final Report
    Report Title              Number                Date Report                         Results
Color-Coding of             NO-AR-10-005        March 31, 2010    Opportunities exist for the Albany P&DC to
Standard Mail and Mail                                            improve color-coding as well as the counting
Condition Reporting at                                            and reporting of delayed mail. Management
the Albany Processing                                             agreed with the report recommendations.
and Distribution Center
Color-Coding of             NO-AR-09-008        August 6, 2009    Opportunities exist for the Santa Clarita P&DC
Standard Mail and Mail                                            to improve color-coding and reporting of
Condition Reporting at                                            delayed mail to reflect the color-coding and
the Santa Clarita                                                 delayed mail reporting requirements as of
Processing and                                                    August 29, 2008. Management agreed with
Distribution Center                                               the report recommendations.
Color-Coding of             NO-AR-09-006         June 10, 2009    Opportunities exist for the West Palm Beach
Standard Mail and Mail                                            P&DC to improve color-coding and reporting of
Condition Reporting at                                            delayed mail to reflect the color-coding and
the West Palm Beach                                               delayed mail reporting requirements as of
Processing and                                                    August 29, 2008. Management agreed with
Distribution Center                                               the report recommendations.




                                                        7
Color-Coding of Standard Mail and Mail Condition                             NO-AR-10-006
 Reporting in the Northland District


                             APPENDIX B: DETAILED ANALYSIS

Color-Coding of Standard Mail

During the week of February 22, 2010, we reviewed 354 containers of Standard Mail at
the                                for compliance with the national color-coding policy.
We found that only 61 (about 17 percent) were properly color-coded and the remaining
293 were not color-coded in accordance with policy. Specifically:

       Two hundred forty-five containers (69 percent) were missing the time and/or date
        from the tag.

       Forty-two containers (12 percent) were missing color-code tags.

       Six containers had the wrong color tags based on the date the mail entered the
        mail stream.

See Appendix C for our observations.




           Illustration 2:
 A color-code tag observed at the
                 on Wednesday,
February 24, 2010 was missing the
          time and date.




We also found when mail bearing different color-codes was processed together, some
of the mail was not properly re-color-coded. Additionally, the             did not
always use the national standardized tag. See Illustration 3.




                                                   8
Color-Coding of Standard Mail and Mail Condition                                   NO-AR-10-006
 Reporting in the Northland District




            Illustration 3:
  The small violet piece of paper
      stuck in the frame of this
 all-purpose container is intended
     to act as a color code-tag.




Causes

These conditions occurred due to:

     Limited supervision and oversight by the color code coordinator.

     First-Class Mail® processing taking precedence over the Standard Mail
      processing.

     Plant personnel did not tag some containers received at the dock even though
      they needed tags.

     Limited awareness of the policy because some employees were not trained.

A review of training records indicated not all Minneapolis and St. Paul P&DC employees
involved in these operations had received the national color-code training provided
through the Postal Employee Development Center. Specifically:

       31 of the 42 Minneapolis P&DC managers and supervisors (about 74 percent)
        had received documented color-code training.

       27 of the 33 St. Paul P&DC managers and supervisors (about 82 percent) had
        received documented color-code training.

Criteria

According to the national color-coding policy for Standard Mail, color-coding procedures
provide a guide to help maintain service goals for Standard Mail. All Standard Mail will
be color-coded and Standard Mail without color-coded tags will be coded the same
color as the oldest mail in the unit at the time of its discovery. Additionally, all color-code
tags will comply with a standardized national format which will require employees to
enter the date and time of mail entry on each tag. The delivery color-code is based on
the original entry date and time of the mail, not the processing date or time. Additionally,




                                                   9
Color-Coding of Standard Mail and Mail Condition                                                      NO-AR-10-006
 Reporting in the Northland District


the P&DC must develop local procedures to ensure they maintain the correct color-code
for all mail based on its arrival, even when such mail is entered into mechanized or
automated sorting systems.

Effect

Without accurate color-coding, the Postal Service cannot ensure timely processing,
dispatch, and delivery of Standard Mail. Without a date and time on the tag, the Postal
Service cannot determine whether employees processed Standard Mail using the FIFO
method. Additionally, the Postal Service cannot readily track service standards and
accurately report mail conditions in the web-based MCRS. Failure to accurately
color-code and date the mail could confuse delivery units about when the mail needs to
be delivered.

Mail Condition Reporting
During our observations the week of February 22, 2010, Northland District employees
were not accurately recording and reporting delayed mail.
        On February 23, 2010, the Minneapolis P&DC’s count sheet showed delayed
         Standard Mail volume of 52,291 pieces, while the actual count showed 201,501
         pieces. This resulted in the underreporting of 149,210 pieces of delayed
         Standard Mail.
        Also, on February 23, 2010, the St. Paul P&DC reported 391 pieces of delayed
         Standard Mail, while the actual count showed 5,041 pieces. This resulted in the
         underreporting of 4,650 pieces of delayed Standard Mail.
        Additionally, when recording the “oldest mail” date in webMCRS, the employee
         who entered the data did not always accurately record the date from the
         color-code tag.

We could not verify the accuracy of prior reports at the Minneapolis P&DC because the
count sheets6 were destroyed after daily MCRS data input. The St. Paul P&DC did not
document the volume of mail on-hand by delivery day; therefore, we were not able to
enumerate the underreported volume prior to our observations. Bringing these issues to
the attention of plant management resulted in the proper reporting of delayed mail and
retention of the count records. See Tables 1 and 2 below.




6
  There is no requirement to retain the daily count sheets. However, the Postal Service Headquarters is considering
requiring count sheets be retained for up to 1 year.




                                                         10
Color-Coding of Standard Mail and Mail Condition                                                   NO-AR-10-006
 Reporting in the Northland District


      Table 1: Mail Condition Reporting Observations at the Minneapolis P&DC
                    On-Hand
                    Standard                                                         Oldest       Oldest
                       Mail         Reported        Actual                             Date        Date
        Date        Reported        Delayed        Delayed      Underreported       Reported Observed
     2/23/2010 716,48        7        52,291        201,501           149,210       2/22/2010 2/20/201 0
     2/24/2010 583,79        6        13,760         89,310            75,550       2/23/2010 2/21/201 0
               7
     2/25/2010 960,68        9        78,372         78,372                 0       2/23/2010 2/23/2010
        Total 2,260,97       2       144,423        369,183           224,760

       Table 2: Mail Condition Reporting Observations at the Saint Paul P&DC
                   On-Hand
                   Standard                                                           Oldest       Oldest
                     Mail          Reported          Actual                             Date        Date
       Date        Reported        Delayed          Delayed      Underreported       Reported8 Observed
    2/23/2010 478,08        7            391           5,041             4,650       2/20/2010 2/20/201 0
    2/24/2010 390,70        1          4,455          39,083            34,628       2/22/2010 2/22/201 0
              9
    2/25/2010 760,69        9         11,142          11,142                 0       2/23/2010 2/23/2010
       Total 1,629,48       7         15,988          55,266            39,278

A comparison of the Minneapolis and St. Paul P&DCs delayed mail volumes to similar-
sized sites (Group 1 and 2 plants, respectively) showed large variances. For example,
in fiscal year (FY) 2009, the Minneapolis P&DC’s delayed volume totaled 19.7 million
pieces, while the average for Group 1 plants totaled over 56.5 million pieces. We
believe it is likely that delayed mail at the Minneapolis and St. Paul P&DC’s may have
been underreported for several years. See Table 4 for additional information on delayed
mail reporting.




7
  Bringing OIG observations to the attention of plant management resulted in proper MCRS reporting as of February
25, 2010.
8
  The Oldest Date Reported and the Oldest Data Observed were the same, so we noted no problems.
9
  Bringing OIG observations to the attention of plant management resulted in proper MCRS reporting as of February
25, 2010.




                                                        11
Color-Coding of Standard Mail and Mail Condition                                            NO-AR-10-006
 Reporting in the Northland District



                                  Table 4: Delayed Mail Reporting

                                             Minneapolis P&DC
                       Priority         FCM         Periodicals     Standard     Packages      Total
     FY 2006                      0 444,99      1          14,596    3,554,969          0     4,014,556
     FY 2007                1,680 253,09        4           7,554      836,828          0     1,099,156
     FY 2008                      0 75,367                     0     3,302,279          0     3,377,646
     FY 2009                1,400 21,681                    2,134   19,687,279          0    19,712,494

                                             Average Group 1
                       Priority         FCM         Periodicals     Standard     Packages      Total
     FY 2006              77,537 4,328,79       3    9,124,170      64,075,061     86,848 77,674,1     34
     FY 2007              36,282 3,415,45       0    7,905,068      58,395,685     84,706 69,825,7     44
     FY 2008              24,508 1,617,09       5    3,372,220      37,172,993     16,010 42,197,3     77
     FY 2009              36,615 1,680,36       0    3,446,147      51,375,671     23,953 56,559,1     68

                                              St. Paul P&DC
                       Priority         FCM         Periodicals     Standard     Packages      Total
     FY 2006                 567 7,505                    120,666    1,874,731      1,114     2,004,583
     FY 2007                      0 40,269                  5,454     515,918           0       561,641
     FY 2008                      0 43,722                 56,153    1,478,795          0     1,578,670
     FY 2009               2,256 307,18         6          84,279   22,077,873        596    22,472,190

                                             Average Group 2
                       Priority         FCM         Periodicals     Standard     Packages      Total
     FY 2006              47,705 3,165,87       3    5,928,385      50,560,476     67,267 59,764,1     83
     FY 2007              28,141 2,476,73       1    3,459,299      35,553,272     61,921 41,575,7     81
     FY 2008              38,876 1,736,54       1    2,428,128      29,342,070     53,846 33,593,1     18
     FY 2009              38,014 1,806,66       7    1,981,172      48,119,910     10,328 51,953,4     74

Cause

These conditions occurred because:

     The employee counting the mail misinterpreted the policy believing they had until
      the delivery day to process it before reporting it as delayed.

     In-Plant Support employees did not adequately oversee the employees
       performing the mail count.




                                                     12
Color-Coding of Standard Mail and Mail Condition                                  NO-AR-10-006
 Reporting in the Northland District



Criteria

According to the national color-coding policy and the policy for mail condition reporting,
reporting delayed mail flow for Standard Mail is necessary to provide an accurate
snapshot of daily facility conditions for Standard Mail. Additionally, employees should
report destinating 5-digit non–delivery point sequenced mail10 as delayed 1 day before
the scheduled delivery day. Finally, the date of the oldest mail for Standard Mail is the
date recorded on any color-code tag affixed to a Standard Mail container at the time of
the count.

The Postal Service’s Network Operations Website, Processing Operations, In-Plant
Training, requires Operations support specialists (OSS) to consolidate and review data
from operations to ensure the integrity of the information collected. Additionally, the
OSS must audit webMCRS by checking volume numbers from the webMCRS report
against manual counts (verifying counts with data collectors) and compliance with color-
coding policies.

Effect

Not properly reporting delayed mail may prevent management from making effective
operational decisions. This could also impact customer service without management’s
knowledge.




10
     Destinating 5-digit mail requires additional sorting to the carrier route.




                                                                13
         Color-Coding of Standard Mail and Mail Condition                                              NO-AR-10-006
          Reporting in the Northland District


                  APPENDIX C: COLOR-CODING OBSERVATIONS OF STAGED MAIL
                                                 Containers       Missing       Incomplete   Wrong
Date       Time             Location                                                                        Tag Origin
                                                 Observed          Tags            Tags      Color
 2/23      0540   Minneapolis P&DC 3-5L                    2                2
 2/23      0545   Minneapolis P&DC 3-9AC                   2                2                         No Tag
 2/23      0545   Minneapolis P&DC 3-10AC                  1                1                         No Tag
 2/23      0550   Minneapolis P&DC 2-16AC                  2                2                         No Tag
 2/23      0550   Minneapolis P&DC 2-16A                   2                             2            Minneapolis P&DC
 2/23      0605   Minneapolis P&DC 2-10B                  43                            39            Minneapolis P&DC
 2/23      0610   Minneapolis P&DC 2-8AB                   8                             8            Minneapolis P&DC
 2/23      0615   Minneapolis P&DC 2-5AG                   4                             4            Minneapolis P&DC
 2/23      0625   Minneapolis P&DC 2-6AC                  23                            23            Minneapolis P&DC
 2/23      0630   Minneapolis P&DC 2-5C                    4                             4            Minneapolis P&DC
 2/23      0640   Minneapolis P&DC 3-9A7                   2                             2            Minneapolis P&DC
 2/23      0642   Minneapolis P&DC 3-9AM                  11                8            3            Minneapolis NDC
 2/23      0642   Minneapolis P&DC 3-34                    1                             1            Minneapolis NDC
 2/23      0650   Minneapolis P&DC Ramp                   54                1           40            Minneapolis NDC
 2/23      0655   Minneapolis P&DC 3-43                   11                1                         Minneapolis NDC
 2/23      0655   Minneapolis P&DC 3-62                    8                8                         No Tag
 2/23      1530   Minneapolis P&DC 2-12                    8                                        1 Minneapolis P&DC
 2/23      1530   Minneapolis P&DC 2-03                    1                             1            Minneapolis P&DC
                  Minneapolis P&DC
 2/23 1535                                                  23                          18           Minnea polis P&DC
                  Automation
                  Minneapolis P&DC
 2/23 1540                                                  14              2           11           Minnea polis P&DC
                  Automation
 2/23      1545   Minneapolis P&DC 2-1OB                    10                           7          1 Minneapolis P&DC
 2/23      1550   Minneapolis P&DC 2-6C                     11                          10          1 Minneapolis P&DC
 2/24      1600   St. Paul P&DC 4-15                         1                           1            St. Paul P&DC
 2/24      1600   St. Paul P&DC 4-35                        12          12                            No Tag
 2/24      1600   St. Paul P&DC 2-15                         2                           2            St. Paul P&DC
 2/24      1640   St. Paul P&DC 3-Elevator                  25                          25            St. Paul P&DC
 2/24      1640   St. Paul P&DC 3-8C                         3                           3            St. Paul P&DC
 2/24      1640   St. Paul P&DC 3-6D                         1                           1            St. Paul P&DC
 2/24      1640   St. Paul P&DC 3-8D                         1                           1            St. Paul P&DC
                  St. Paul P&DC LTCS
 2/24 1640                                                   7                           7            St. Paul P&DC
                  Staging
 2/25             St. Paul P&DC Dock                        12                          12            St. Paul P&DC
 2/24      1625   St. Paul P&DC 4-6H                        18                                        Minneapolis NDC
 2/24      1627   St. Paul P&DC 4-8G                         5              1            2          2 Minneapolis NDC
                                                                                                      Advanced Flat Sorting
 2/24      1630 St. Paul P&DC 4-8H                           4                           4
                                                                                                      Machine Rework
                                                                                                      Prescott River Falls
 2/24      1637 St. Paul P&DC 3-8F                           1                                      1
                                                                                                      Post Office
 2/25      0700 St. Paul P&DC 4-Flats                         7             2            5            St. Paul P&DC
 2/25      0710 St. Paul P&DC Auto. Staging                   8                          8            St. Paul P&DC
 2/25      0712 St. Paul P&DC Auto. Staging                   2                          1            St. Paul P&DC
Totals                                                      354        42              245          6
                         Error Percent                            11.9%           69.2%      1.7%




                                                             14
Color-Coding of Standard Mail and Mail Condition           NO-AR-10-006
 Reporting in the Northland District



                       APPENDIX D: MANAGEMENT’S COMMENTS




                                                   15
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   16
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   17
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   18
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   19
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   20
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   21
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   22
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   23
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   24
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   25
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   26
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   27
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   28
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   29
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   30
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   31
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   32
Color-Coding of Standard Mail and Mail Condition        NO-AR-10-006
 Reporting in the Northland District




                                                   33
